BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of the Cato Institute as Amicus Curiae
in Support of Petitioner in 21-82, Alpine Securities
Corporation v. United States Securities and Exchange
Commission, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 20th day of August, 2021:
Robert Mark Loeb
Counsel of Record
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-84 7 5
rloe b@orrick.com
Counsel for Petitioner
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001
www.beckergallagher.com

Suite 102
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

Russell G. Ryan
Counsel of Record
Ashley C. Parrish
Christine M. Carletta
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
rryan@kslaw.com
aparrish@kslaw.com
ccarletta@kslaw.com
Ilya Shapiro
Jennifer J. Schulp
William M. Yeatman
CATO INSTITUTE
1000 Mass. Ave. NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

{lu__'l}-0f: rj'(J ,1 dOo I

drt,v~. ~
[seal]

